           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   INDIVIDUAL REPRESENTATIVE
     PAYEES FOR THE SOCIAL
   SECURITY ADMINISTRATION IN
      THE NEW YORK REGION

     January 2005 A-02-05-15049




   EVALUATION
     REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   January 31, 2005                                                              Refer To:

To:     Bea Disman
        Regional Commissioner
         New York

From:   Inspector General

Subject: Individual Representative Payees for the Social Security Administration in the New York
        Region (A-02-05-15049)


        OBJECTIVE
        Our objective was to confirm that beneficiaries in the care of representative payees
        existed; and, through personal observation and interviews, to determine whether the
        beneficiaries' food, clothing and shelter needs were being met.

        BACKGROUND
        Some individuals cannot manage or direct the management of their finances because of
        their youth or mental and/or physical impairments. Congress granted the Social
        Security Administration (SSA) the authority to appoint representative payees to receive
        and manage these beneficiaries’ benefit payments. 1 A representative payee may be an
        individual or an organization. SSA selects representative payees for Old-Age, Survivors
        and Disability Insurance beneficiaries and Supplemental Security Income (SSI)
        recipients when representative payments would serve the individual’s interests.

        SSA’s primary concern is to select the payee who will best serve the beneficiary’s
        interests; and preference is normally given to a parent, legal guardian, spouse or other
        relative of a beneficiary.2 SSA considers payments to a representative payee to have
        been used for benefit of the beneficiary if they were spent on the beneficiary’s current
        maintenance—which includes the costs incurred in “…obtaining food, shelter, clothing,
        medical care, and personal comfort items.”3

        1
         The Social Security Act §§ 205(j)(1)(A) and 1631 (a)(2)(A)(ii), 42 U.S.C §§ 405(j)(1)(A) and
        1383(a)(2)(A)(ii).
        2
            20 C.F.R. §§ 404.2021 and 416.621.
        3
            20 C.F.R. §§ 404.2040(a) and 416.640(a).
Page 2 – Bea Disman


We are conducting a nation-wide review of individual representative payees serving
14 or fewer beneficiaries (see Appendices A and B for details). There are
approximately 4.3 million of these types of representative payees who serve
approximately 5.5 million beneficiaries. To provide statistically valid nation-wide
projections, we selected 275 individual representative payees for review, of which 22
were in the New York Region. 4 These 22 representative payees received and
managed approximately $13,795 in monthly benefits for 29 beneficiaries.

RESULTS OF REVIEW
We confirmed the existence of the 29 beneficiaries in the care of the 22 representative
payees in the New York Region; and, through personal observation and interviews, we
found that the beneficiaries' food, clothing and shelter needs were being met for 28 of
the beneficiaries.5 For these 28 individuals, nothing came to our attention that would
lead us to believe that the representative payees did not use the Social Security
benefits received for the beneficiaries’ needs. In one case, it appeared the beneficiary’s
basic shelter needs were met, but we question whether all of the beneficiary’s funds
were being used to help meet his needs. This case is further developed below.

Representative Payee Did Not Ensure That All Benefits Went for the Beneficiary’s
Needs

One of a representative payee’s primary responsibilities is to ensure the beneficiary’s
day-to-day needs are met. This includes costs incurred in obtaining food, shelter,
clothing, medical care, and personal comfort items. It also includes, but is not limited to,
regularly meeting with the beneficiary to ascertain his/her current and foreseeable
needs.6

One case we reviewed involved a daughter serving as a representative payee for her
father. We had difficulty locating the representative payee when attempting to set up an
interview. We eventually contacted one of the representative payee’s sisters, whose
work telephone number was included in the beneficiary’s Master Beneficiary Record
(MBR). The sister informed us that both the representative payee and the beneficiary
only spoke Spanish. We contacted the servicing field office (FO) to request the
assistance of a Spanish interpreter and were told the FO had unsuccessfully attempted
to contact the representative payee on an overpayment issue. Because the
representative payee did not respond to the FO, the beneficiary’s benefits were put into
suspense.

4
  Originally, we had 24 cases in the New York Region. However, two of the cases were replaced. One
case involved a representative payee that was terminally ill and subsequently died. The other case
involved a representative payee whose minor child, who was her only beneficiary, stopped receiving
benefits upon turning 18 before the period of our review.
5
  Of the 22 representative payees, 15 were the beneficiaries’ mothers and 7 were some other type of
relative.
6
    SSA POMS, GN 00502.113.
Page 3 – Bea Disman


We provided the FO staff with the representative payee’s sister’s telephone number.
SSA was eventually able to speak with the representative payee who stated she was
often out of the country, lived apart from her father, and was not in a position to be
representative payee. She requested that her sister, whom her father (the beneficiary)
actually lived with, be named his representative payee. The sister later visited the FO
and applied to be her father’s representative payee. Her application was approved, and
she was named the new representative payee.

We interviewed the beneficiary and the current representative payee. We were told by
the current representative payee (the custodial daughter) that the previous
representative payee did not properly oversee the use of the beneficiary’s benefits.
From May 1998 to August 2004, the previous representative payee paid the
beneficiary’s rent, which was $350 a month, and then gave the beneficiary free access
to the remaining $300 of his benefits. Both the beneficiary and the custodial daughter
stated that the beneficiary runs out of money and has to borrow funds from his custodial
daughter by the end of each month.

The current representative payee (the custodial daughter), who was appointed in
August 2004, will manage a monthly benefit of $651. However, the beneficiary will only
receive $587 monthly since his benefits will be reduced to repay an overpayment. Even
though she was recently appointed representative payee, we are concerned that she
will not properly manage a portion of her father’s benefits based on our meeting with
her. In response to our questions, she reported that she continued the practice
established by the previous representative payee of paying the rent, $350 per month,
and then providing free access to the remaining funds, now $237 a month. Given this
situation, the representative payee is not ensuring a significant portion of the
beneficiary’s benefits is being used to meet his current needs, such as food and
clothing. This is of particular concern in light of the beneficiary’s admission that he does
not have enough money for food. At the current benefit rate, approximately $2,844 per
year is at-risk of not being managed appropriately.

Representative Payee Did Not Report Events to SSA That Affected Beneficiary’s
Entitlement or Benefit Amount

One of a representative payee’s primary responsibilities is to notify SSA of any event
that would affect the amount of benefits the beneficiary receives or the beneficiary’s
right to receive benefits.7 For example, a representative payee must report to SSA
when

•     the beneficiary dies,
•     the beneficiary moves,
•     the beneficiary starts or stops working,


7
    SSA POMS, GN 00502.113 C.1, SI 02301.005 B.2.
Page 4 – Bea Disman


•   a disabled beneficiary's condition improves,
•   the beneficiary is no longer in the representative payee’s care, and
•   the beneficiary resides outside of the country.

In the above case, the former representative payee neglected to report to SSA a
change in the beneficiary’s living arrangements and a period he lived outside the
country. The FO became aware of the changes, calculated the appropriate
overpayment amount, and sent letters to the previous representative payee to inform
her of the overpayment. The overpayment was calculated to be over $4,880. The
representative payee did not respond to SSA’s letters, which led the FO to suspend the
beneficiary’s payments.

SSA reinstated the beneficiary’s payments when the new representative payee was
appointed. The new representative payee was informed of the overpayment upon being
appointed and was unprepared to dispute it at that time. She claimed that no
overpayment existed and planned to pursue another interview with SSA to dispute the
overpayment or ask for a waiver.

CONCLUSION AND RECOMMENDATION
We determined that all 29 beneficiaries existed and were in the care of their
representative payees. In addition, based on our observations, the individuals’ food,
clothing and shelter needs appeared to be met in 28 cases. While it appeared the
beneficiary’s basic shelter needs were met for one case, we question whether all of the
beneficiary’s funds were being used to help meet his needs. Accordingly, we
recommend that the New York Regional Office:

• Continue to monitor the current representative payee’s performance to ensure all the
    beneficiary’s funds are used to meet the beneficiary’s needs.


AGENCY COMMENTS

The Agency agreed with our recommendation and has initiated corrective action. SSA’s
comments are included as Appendix C.
Page 5 – Bea Disman


OTHER MATTERS
We found instances of inconsistent beneficiary and representative payee information
within SSA’s systems. Some examples of the inconsistencies include a name spelled
differently for the same individual within the MBR, Supplemental Security Record, and
Numident; different telephone numbers for the same individual within the MBR,
Supplemental Security Record, and Representative Payee System; and wrong,
incomplete, or outdated telephone numbers or addresses for some individuals within the
MBR, Supplemental Security Record, and Representative Payee System. All of the
inconsistencies in the data identified through our work have been brought to the
regional SSA staff’s attention.




                                              S
                                              Patrick P. O'Carroll, Jr.
                                     Appendices
APPENDIX A – Scope and Methodology

APPENDIX B – Sampling Methodology and Results

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                                                  Appendix A

Scope and Methodology
Our population included all individual representative payees within the contiguous
48 states serving 14 or fewer beneficiaries as of May 20, 2004. To accomplish our
objective, we:

•   Reviewed the Social Security Administration’s (SSA) policies and procedures for
    monitoring representative payees and their responsibilities for the beneficiaries in
    their care.

•   Obtained a data extract of representative payees from the Representative Payee
    System as of May 2004.

•   Selected a national random sample of 275 representative payees nationwide. We
    are issuing a separate report on the nation-wide results, as well as separate reports
    for each of the 10 SSA regions.1

For the 22 representative payees in the New York Region, we

•   verified the identities of 22 representative payees and the 29 beneficiaries they
    served,

•   interviewed 22 representative payees,

•   interviewed 29 beneficiaries,

•   visited and observed the living conditions of 29 beneficiaries, and




1
  SSA OIG, Nation-Wide Survey of Individual Representative Payees for the Social Security
Administration (A-13-05-25006), Individual Representative Payees for the Social Security Administration
in the Boston Region (A-01-05-15048), Individual Representative Payees for the Social Security
Administration in the New York Region (A-02-05-15049), Individual Representative Payees for the Social
Security Administration in the Philadelphia Region (A-14-05-15050), Individual Representative Payees for
the Social Security Administration in the Atlanta Region (A-13-05-15051), Individual Representative
Payees for the Social Security Administration in the Chicago Region (A-05-05-15052), Individual
Representative Payees for the Social Security Administration in the Dallas Region (A-06-05-15053),
Individual Representative Payees for the Social Security Administration in the Kansas City Region
(A-07-05-15054), Individual Representative Payees for the Social Security Administration in the Denver
Region (A-07-05-15055), Individual Representative Payees for the Social Security Administration in the
San Francisco Region (A-09-05-15056), and Individual Representative Payees for the Social Security
Administration in the Seattle Region (A-09-05-15057).


                                                  A-1
•   reviewed the Master Beneficiary Record, Supplemental Security Record, Numident,
    Master Earnings File, Representative Payee System, and Prisoner Update
    Processing System records for each individual to confirm personal information and
    identify any discrepancies.

We performed site visits to interview the representative payees and beneficiaries to
determine whether the representative payees used the benefits received for the
beneficiaries’ needs. Specifically, we determined whether food, shelter, and clothing
needs were being met. We are reporting the results of our assessment and those
conditions where the representative payee’s actions did not comply with SSA policies
and procedures.

We performed our review in the New York Region from August to October 2004. We
conducted our review in accordance with Quality Standards for Inspections issued by
the President’s Council on Integrity and Efficiency.




                                          A-2
                                                                      Appendix B

Sampling Methodology and Results
To identify the nation-wide population, we obtained a data extract from the Social
Security Administration’s Representative Payee System of all individual representative
payees who had 14 or fewer beneficiaries in their care as of May 20, 2004. This
population was 5,380,635 representative payees who served 6,818,696 beneficiaries.

From this population, we excluded representative payees who had any of the following
characteristics:

•     resided outside of the 48 contiguous States;

•     served only as their own representative payee, as reflected in the Representative
      Payee System;

•     had only beneficiaries who were in non-current pay status;

•     had an invalid state code or military address; or

•     managed total funds of $50 or less each month.

This reduced the population to 4,306,779 representative payees with
5,520,303 beneficiaries. From this population, we randomly selected
275 representative payees for review. Our sample included 24 representative
payees in the New York Region. Findings reported in the New York Region
report will be included in the national roll-up report.

As stated above, 24 of the 275 sample cases chosen were located in the New York
Region. However, two representative payees were replaced from our original sample.

•   One was found to be terminally ill and in hospice care. She was the representative
    payee for her mentally ill daughter. Upon speaking with our staff, the representative
    payee’s husband explained that his wife was in hospice care and asked how he
    could apply to become his daughter’s representative payee. We provided him with
    his district office’s telephone number. He subsequently became the new
    representative payee. His wife died. The replacement representative payee sample
    was not in the New York Region.

•   Another representative payee was dropped from our sample because her minor
    child, which was her only beneficiary, stopped receiving benefits upon turning 18
    before the period of our review.

Accordingly, our review consisted of 22 representative payees. The following table
provides the details of our sampling results in the New York Region.

                                           B-1
                                           Sample Results


                                                                           Dollar
                                                              Number of
                            Sample Results                                Amount of
                                                               Cases
                                                                           Cases1
    A Representative Payee Did Not Ensure That All Benefits
                                                                 1         $2,844
    Went for the Beneficiary’s Needs




1
    12-month estimate based on monthly finding.




                                                  B-2
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      January 12, 2005                                                       Refer To: S2D2G3

To:         Assistant Inspector General for Audit

From:       Regional Commissioner
            New York Region

Subject:    Individual Representative Payees for the Social Security Administration in the New York
            Region (A-02-05-15049)-Reply


           Thank you for the opportunity to comment on the final report of the above-mentioned audit. The
           New York Region agrees with the audit report’s recommendation and has taken the following
           corrective actions:

                    •   We contacted the servicing FO and asked them to meet with the Representative
                        Payee to ensure she understands the role and responsibilities of serving as payee and
                        the events that need to be reported to Social Security.

                    •   In addition, we advised the FO to re-contact the representative payee in six months
                        to obtain an updated accounting.

           Other matters brought to our attention during the course of the review were addressed and
           corrective actions were taken.

           Any questions concerning the attached comments can be directed to Peggy Brennan of the Center
           for Programs Support, RSI Team at (212) 264-8355.


                                                                    /s/
                                                           Beatrice M. Disman
                                                                    Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, (212) 264-5295

   Vicki Abril, Audit Manager, (212) 264-0504

Acknowledgments

In addition to those named above:

   Denise Molloy, Program Analyst-in-Charge

   Robert Blake, Senior Auditor

   Christine Chen, Auditor

   Christine Hauss, Program Analyst

   Stephen Liebman, Senior Auditor

   Abraham Pierre, Auditor

   Jeffrey Shapiro, Senior Program Analyst

   Arthur Treglia, Senior Auditor


   For additional copies of this report, please visit our web site at
   www.socialsecurity.gov/oig or contact the Office of the Inspector General’s
   Public Affairs Specialist at (410) 965-3218. Refer to Common Identification
   Number A-02-05-15049.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
